OFFICE OF INSPECTOR GENERAL



FOLLOW-UP AUDIT OF THE
AGREED-UPON-PROCEDURES
REVIEW OF THE SOUTHERN
AFRICA ENTERPRISE
DEVELOPMENT FUND
AUDIT REPORT NO. 4-690-07-009-P
AUGUST 28, 2007




PRETORIA, SOUTH AFRICA 

Office of Inspector General


August 28, 2007

MEMORANDUM

TO:                  USAID/South Africa Mission Director, Carleene Dei

FROM:                Regional Inspector General/Pretoria, Nathan S. Lokos /s/

SUBJECT:             Follow-up Audit of the Agreed-Upon-Procedures Review of the Southern
                     Africa Enterprise Development Fund (Audit Report No. 4-690-07-009-P)

This memorandum transmits the Office of Inspector General’s final report on the subject
audit. The report does not make any recommendations.

USAID/Southern Africa’s management comments dated July 24, 2007, were
received on August 16, 2007. These comments are included as Appendix II of this
report.

I sincerely appreciate the cooperation and courtesy extended to my staff during this
audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
P.O. Box 43, Groenkloof
0027, Pretoria, South Africa
www.usaid.gov
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Finding ................................................................................................................... 4 


Evaluation of Management Comments ......................................................................... 6


Appendix I – Scope and Methodology .......................................................................... 7


Appendix II – Management Comments..........................................................................8

SUMMARY OF RESULTS 

The Regional Inspector General (RIG)/Pretoria performed a follow-up audit of the
Agreed-Upon-Procedures Review of the Southern Africa Enterprise Development Fund
(SAEDF). The initial review (Report No. 4-690-05-005-N) was conducted by KPMG
(Johannesburg, South Africa) and was issued by RIG/Pretoria on March 14, 2005. The
purpose of the follow-up audit was to determine whether the Mission had taken
corrective action for Recommendation Nos. 3 and 4 from the initial report. These findings
addressed reportable internal control weaknesses and material instances of
noncompliance with the agreement terms and applicable laws and regulations (see
pages 2 and 3).

The follow-up audit determined that SAEDF has taken corrective action for 19 of the 20
findings we reviewed regarding internal control weaknesses and instances of
noncompliance identified in the KPMG report. For the one issue not addressed, we
consider it to be a best practice and not a material instance of noncompliance, and we
have accordingly disclosed it in a separate management letter. As a result, we have
concluded that SAEDF has taken sufficient action to correct the internal control
weaknesses and instances of noncompliance identified in the KPMG report (see pages 4
and 5).




                                                                                       1
BACKGROUND

On April 3, 1995, USAID entered into Grant Agreement No. AOT-G-00-95-00086-00
(later changed to AOT-0514-G-00-5086-00) with the Southern Africa Enterprise
Development Fund (SAEDF) to encourage the creation and expansion of indigenous
small and medium-size enterprises in the Southern Africa region. The specific countries
covered in the agreement were Angola, Botswana, Lesotho, Malawi, Mozambique,
Namibia, South Africa, Swaziland, Tanzania, Zambia, and Zimbabwe. As of September
30, 2003, USAID had committed $87.6 million in grant funds of a total life-of-project
estimated amount of $108 million.

The drawdown for the period from October 1, 1997, to September 30, 2003, was
$59,751,974:

Table 1. Drawdowns
    Description            Investments              Operational                 Total
Total drawdowns
from 10/1/1997 to           $54,121,436              $5,630,538             $59,751,974
9/30/2003

Because of allegations of funds misuse by the chief executive officer and the lack of
acceptable Office of Management and Budget (OMB) Circular A-133 audits for fiscal
years 2001 and 2002, USAID/Southern Africa contracted KPMG, Johannesburg, South
Africa, to perform an agreed-upon-procedures review for the period November 1, 1995,
to September 30, 2003. The review covered $63.9 million in expenditures of USAID
funds. The agreed-upon-procedures review disclosed total questioned costs of $9.6
million ($1.2 million ineligible and $8.4 million unsupported), 26 reportable internal
control weaknesses, and 30 instances of material noncompliance.

On March 14, 2005, RIG/Pretoria issued the KPMG report, recommending that
USAID/Southern Africa take actions to ensure that the recommendations to SAEDF be
addressed before the release of the remaining life-of-grant funds of $20,436,288. In
response to the review recommendations, USAID/Southern Africa initiated a review of
SAEDF to check the controls and systems that SAEDF management had implemented
to ensure that the reportable internal control weaknesses and instances of material
noncompliance detailed in the KPMG report had been addressed.

In addition to the review conducted by USAID/Southern Africa, the Mission requested
RIG/Pretoria to perform a follow-up audit of the agreed-upon-procedures review of
SAEDF. This follow-up audit was designed to determine whether USAID/Southern
Africa’s actions in response to Recommendation Nos. 3 and 4 of Report No. 4-690-05
005-N were effective in correcting the identified problems. Based on the Mission’s
response to Recommendation No. 5 of the original audit report, USAID/Southern Africa
will not release the remaining life-of-grant funding of $20,436,288 to SAEDF until an
independent third party has verified that substantially all material and nonmaterial
internal control weaknesses and instances of material noncompliance have been
rectified. Moreover, the release of this funding is also subject to the availability of funds.




                                                                                            2
AUDIT OBJECTIVE
The Regional Inspector General (RIG/Pretoria) conducted a follow-up audit as part of the
Office of Inspector General’s fiscal year 2007 audit plan to answer the following
question:

   Were USAID/Southern Africa’s actions in response to Recommendation Nos. 3
   and 4 of Report No. 4-690-05-005-N effective in correcting the identified
   problems?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      3
AUDIT FINDINGS 

USAID/Southern Africa’s actions were effective in correcting the internal control and
compliance deficiencies identified in Report No. 4-690-05-005-N. Southern Africa
Enterprise Development Fund (SAEDF) has taken appropriate steps to implement
controls to address the internal control weaknesses and material instances of
noncompliance identified in the agreed-upon-procedures review conducted by KPMG 1        .TP




SAEDF has taken corrective action for 19 of the 20 internal control and compliance
findings tested. Some of the controls instituted by SAEDF include the following:

    •	 Employee bonuses are approved by the chief executive officer (CEO) before
       being paid.
    •	 Bonuses are determined by performance review scoring.
    •	 Bonuses are approved for payment by the Board of Directors (Board).
    •	 The CEO’s employment contract is signed by the Board members and it clearly
       states the duties and responsibilities of the CEO.
    •	 The CEO’s performance is formally evaluated by the Board.
    •	 Budgets are monitored and discussed on a quarterly basis during the Board’s
       meetings.
    •	 Journal entries are substantiated by supporting documentation, kept in a
       sequentially numbered register, and properly authorized before being processed
       in the financial system.
    •	 Employees are given itemized bills that clearly identify personal calls, bills are
       checked and approved by each departmental supervisor, and deductions are
       made to employees’ salaries if the set threshold is exceeded.
    •	 Leave forms are completed and timely authorized, entered into the leave system,
       and reconciled.
    •	 The payroll is being prepared by the financial manager, who is knowledgeable
       about payroll; furthermore, the attendance register is being signed by all
       employees and authorized by the chief financial officer on a daily basis.
    •	 All investments entered into by SAEDF are reviewed to ensure that they are not
       pledged as collateral with other financial institutions.
    •	 The investment process is adequately adhered to as stated in the investments
       policy manual.
    •	 Checks and bank transfer letters are always signed by two authorized
       signatories.
    •	 Human resources, investments, procurement, travel, and accommodation
       policies have been enhanced so that weaknesses previously identified are being
       timely mitigated.
    •	 Travel forms are timely authorized by designated senior officials.
    •	 Bank reconciliations are timely prepared and reviewed and outstanding items are
       followed and cleared.


1
  Audit Report No. 4-690-05-005-N, “Agreed-Upon-Procedures Review of USAID Resources
Managed by the Southern Africa Enterprise Development Fund, USAID Grant No. AOT-0515-G
00-5086-00 (Originally Grant No. AOT-G-00-95-00086-00) for the Period November 1, 1995, to
September 30, 2003,” dated March 14, 2005.


                                                                                        4
   •	 Salary increases are validated by performance evaluation forms, which are
      signed by the CEO, rated employee, and senior official of the rated employee.

We do not consider the one remaining item that SAEDF has not addressed to be a
material instance of noncompliance, but we do consider it to be a best policy practice for
SAEDF to follow in the future. Therefore, this item is communicated in a separate
management letter to SAEDF.




                                                                                        5
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Southern Africa provided its management comments on the draft report in a
memorandum dated July 24, 2007, which was received on August 16, 2007. Those
comments included one clarification that was included in this final report.

The management comments are included in their entirety in Appendix II to this report.




                                                                                        6
                                                                           APPENDIX I 




SCOPE AND METHODOLOGY 

Scope

The Regional Inspector General (RIG)/Pretoria performed the follow-up audit in
accordance with generally accepted government auditing standards. Audit fieldwork was
conducted at Southern Africa Enterprise Development Fund (SAEDF) offices in
Johannesburg, South Africa, from May 14–18, 2007.

In planning and performing this audit, the audit team developed specific audit procedure
steps to determine whether appropriate corrective actions were taken to address the
20 most important management controls weaknesses identified in Report No. 4-690
05-005-N.

During the audit, the audit team tested SAEDF’s internal control related to the control
weaknesses and instances of noncompliance selected for review. This included internal
control related to the following:

   •	 Process undertaken by management to approve and authorize bonus payments.
   •	 Process undertaken by the Board of Directors to evaluate the chief executive
      officer’s performance.
   •	 Process undertaken by the financial manager and chief financial officer in
      preparing and authorizing the payroll.
   •	 Payroll and bank reconciliations timely prepared, reviewed, and authorized, and
      reconciling items timely cleared.
   •	 Travel authorization forms adequately completed and timely authorized by
      designated senior officials.
   •	 Salary increases validated by performance evaluation forms that are duly signed.
   •	 Leave forms reconciled to the leave system and variances investigated and
      cleared.
   •	 Bank transfer letter signed by two signatories and always confirmed by the bank
      with SAEDF before payments are made.
   •	 Employees given itemized bills to identify private and business calls and to pay
      for private calls that have exceeded the monthly threshold.

Methodology

To answer the audit objective, the audit team selected the 20 findings considered most
significant out of the 26 reportable internal control findings and 30 material instances
identified in the KPMG report issued by RIG/Pretoria as Audit Report No. 4-690-05-005
N, “Agreed-Upon-Procedure Review of USAID Resources Managed by the Southern
Africa Enterprise Development Fund, USAID Grant No. AOT-0515-G-00-5086-00
(Originally Grant No. AOT-G-00-95-00086-00) for the Period November 1, 1995, to
September 30, 2003,” dated March 14, 2005. The team tested whether management
had designed and implemented adequate controls and policies to ensure that previously
identified internal control weaknesses and noncompliance instances were addressed.




                                                                                      7
                                                                          APPENDIX I


To make its determination, the audit team reviewed USAID/Southern Africa’s final action
memorandum, dated January 26, 2007, and determined whether the corrective actions
were effective to address the recommendations. The team interviewed responsible
SAEDF management officials and reviewed the organization’s revised policies and
procedures that were put into place to correct the internal control weaknesses and
material instances of noncompliance previously identified. The team performed tests of
transactions and other SAEDF documentation to verify that the procedures were being
implemented as designed.




                                                                                     8
                                                                            APPENDIX I




MANAGEMENT COMMENTS




UNITED STATES GOVERNMENT
                                                ACTION M E M O R A N D U M
DATE :	                       July 24, 2007

                              Matthew Rathgeber, Acting Regional Inspector
TO:                           General/Pretoria

FROM :	                       Erna Kerst, Regional Mission Director /s/


                              Follow-up Audit of the Agreed-Upon-Procedures Review
SUBJECT       :	
                              of the Southern Africa Enterprise Development Fund



The Mission has reviewed the subject audit report and issued the following management
comments:


We are pleased with the report’s conclusion that SAEDF has taken sufficient action to
correct the internal control weaknesses and instances of noncompliance identified in the
original KPMG report (Report No. 4-690-05-005-N).

We are concerned that the last sentence on page 2 of the draft report issued June 25,
2007 may give SAEDF the impression that USAID will release the remaining life-of-grant
funding of $20,436,288 now that SAEDF has implemented adequate controls
weaknesses and instances of material noncompliance. In the current budget
environment, USAID is unlikely to have funds available to release to SAEDF. We
suggest adding a sentence such as “The release of this funding is subject to availability
of funds.”




                                                                                        9
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
